<html>
<title> - NOMINATION OF DR. MARK E. SCHAEFER TO BE ASSISTANT SECRETARY FOR OCEANS AND ATMOSPHERE FOR THE U.S. DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 113-172]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-172
 
                   NOMINATION OF DR. MARK E. SCHAEFER
                       TO BE ASSISTANT SECRETARY
                     FOR OCEANS AND ATMOSPHERE FOR
                    THE U.S. DEPARTMENT OF COMMERCE

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2013

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
86-666                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK WARNER, Virginia                DAN COATS, Indiana
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
RICHARD BLUMENTHAL, Connecticut      TED CRUZ, Texas
BRIAN SCHATZ, Hawaii                 DEB FISCHER, Nebraska
MARTIN HEINRICH, New Mexico          RON JOHNSON, Wisconsin
EDWARD MARKEY, Massachusetts         JEFF CHIESA, New Jersey
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2013....................................     1
Statement of Senator Nelson......................................     1
Statement of Senator Schatz......................................     1
Statement of Senator Wicker......................................    18
Statement of Senator Ayotte......................................    22
Statement of Senator Scott.......................................    23

                               Witnesses

Dr. Mark Schaefer, Nominee for Assistant Secretary for Oceans and 
  Atmosphere, U.S. Department of Commerce........................     2
    Prepared statement...........................................     4
    Biographical information.....................................     5

                                Appendix

Response to written questions submitted to Dr. Mark E. Schaefer 
  by:
    Hon. Maria Cantwell..........................................    27
    Hon. Richard Blumenthal......................................    28
    Hon. John Thune..............................................    30
    Hon. Roger F. Wicker.........................................    31
    Hon. Marco Rubio.............................................    31
    Hon. Kelly Ayotte............................................    32


                   NOMINATION OF DR. MARK E. SCHAEFER

                       TO BE ASSISTANT SECRETARY

                     FOR OCEANS AND ATMOSPHERE FOR

                    THE U.S. DEPARTMENT OF COMMERCE

                              ----------                              


                        WEDNESDAY, JULY 24, 2013

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Good morning. We are going to consider the 
nomination of Dr. Mark E. Schaefer of California to be 
Assistant Secretary of Commerce for Oceans and Atmosphere at 
the U.S. Department of Commerce. We look forward to your 
testimony, Doctor, and I want to accommodate the Senator from 
the great state of Hawaii, who needs to excuse himself because 
he has got to fly to Hawaii.
    Senator Schatz?

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you very much, Chairman Nelson. I 
would like to start by thanking you for your accommodation. Dr. 
Schaefer, thank you for taking the time to testify before this 
committee and for visiting with my office individually. I am 
impressed by your qualifications and your track record of 
resolving issues with open and candid dialogue. And so, let me 
begin by saying that I support your nomination. I am anxious to 
support your speedy confirmation.
    The budgetary process and pressures from the sequester will 
make your problem-solving through dialogue approach all the 
more important. NOAA's conservation portfolio is no stranger to 
litigation and legal challenges. But when funding is short, we 
cannot afford the expenses and inefficiency of lawsuits to 
manage critical ocean and coastal resources.
    Hawaii has a number of issues, and I will offer a few 
questions for the record. And we had an opportunity to have a 
brief chat before the formal hearing began. And I do look 
forward to working with the issues that I will mention to you 
on the record, as well as anything that may come up in Hawaii 
and the Pacific. But I want to cover two things with you this 
morning.
    First, the statutory time limit of December 7, 2013 for 
NOAA's listing decision on 66 species of Pacific corals is 
rapidly approaching. Academic experts at the University of 
Hawaii have questioned NOAA's scientific basis for such a 
listing, but to the best of my knowledge, NOAA has not yet 
worked with the university experts to address their concerns. 
Could you please describe your approach going forward and how 
you are going to use the University of Hawaii's expertise on 
this important matter?
    Dr. Schaefer. Yes, thank you, Senator Schatz, and thank you 
for those kind comments. The upcoming potential listing of the 
66 corals is going to be one of the most complex listings that 
NOAA or perhaps any agency has undertaken. And it is going to 
be critically important to ensure that we use the best 
available science to underpin any decisions about listing and 
designation of critical habitat. I recognize that there is 
outstanding expertise at the University of Hawaii and 
elsewhere.
    I have devoted my career to finding ways to ensure that we 
are linking the best available science with decision making 
processes, and I am committed to ensuring that we take 
advantage of the expertise in the state of Hawaii and elsewhere 
to guide us in the listing process.
    Senator Schatz. Thank you. Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator.
    Dr. Schaefer is currently Deputy Executive Director for 
Environmental Conflict Resolution at the Morris Udall and 
Stewart Udall Foundation, a position he has held since 2008. 
Before that, he served as an independent consultant, providing 
advice on environmental science and technology policy, 
including the Woodrow Wilson International Center for Scholars. 
And prior to this, he was Chief Executive Officer of Global 
Environment and Technology, and that is a foundation. He also 
was the Chief Executive Officer of NatureServe back at the 
first part of the last decade.
    So, Dr. Schaefer, we welcome you. Your statement, please. 
And when Senator Wicker arrives, then I will recognize him for 
his statement. Please proceed.

         STATEMENT OF DR. MARK E. SCHAEFER, NOMINEE FOR

         ASSISTANT SECRETARY FOR OCEANS AND ATMOSPHERE,

                  U.S. DEPARTMENT OF COMMERCE

    Dr. Schaefer. Thank you, Chairman Nelson. I appreciate 
those kind remarks. And thank you for the opportunity to 
testify this morning. It is an honor to be considered for the 
position of Assistant Secretary for Oceans and Atmosphere 
within the Department of Commerce.
    I would like to take a moment to introduce my wife of 
nearly 35 years, Jo Ann--there she is--and my son, Greg. And my 
daughter, Hana, who I mentioned to the Senator was named after 
a certain town in Maui, will be here shortly.
    My appreciation for the ocean began as a child through 
frequent trips with my father and mother to a cove in Laguna 
Beach, California. And later through travels along the Pacific 
and Atlantic and Gulf Coasts, I became familiar with the ocean 
environment and its resources. And this led me to pursue 
studies in the biological sciences in college, and ultimately I 
received a B.A. from the University of Washington and a Ph.D. 
from Stanford University.
    I have held positions in the public and private sectors for 
more than 30 years, primarily at the intersection of science 
and policy. Much of my career has been spent identifying ways 
to foster scientific and technological innovation to further 
national goals, including economic growth and the effective 
management and conservation of natural resources. I have also 
promoted efforts to make scientific information more accessible 
to the public in order to encourage greater stakeholder 
engagement in decision-making processes. Most recently, as you 
mentioned, I led the U.S. Institute for Environmental Conflict 
Resolution. That is an organization within the Udall Foundation 
that fosters collaborative efforts to prevent and resolve 
environmental and natural resources disputes involving Federal 
agencies. I have devoted the last several years to identifying 
ways to promote communication across Federal agencies and with 
tribes, State and local government agencies, and the private 
sector to efficiently address these issues.
    Early in my career, I worked on science policy issues as a 
congressional science fellow at the former Office of Technology 
Assessment and as a senior staff member at the Carnegie 
Commission on Science, Technology, and Government. And these 
positions offered me the opportunity to learn from some of our 
nation's leaders about their experiences in working to advance 
public policy and to effectively manage large public 
institutions.
    Later as Assistant Director for Environment in the Office 
of Science and Technology Policy in the Executive Office of the 
President, I worked on a wide range of issues, including ways 
to advance technologies to further national energy and 
environmental goals, and ways to better apply science and 
technology to prepare for and respond to natural disasters, 
including floods and hurricanes. As Deputy Assistant Secretary 
of the Interior for Water and Science, I worked on salmon and 
other fishery issues in the northwest and the east, water 
quality challenges from the Gulf of Mexico to the Everglades 
and Chesapeake Bay, and research and monitoring activities 
throughout the country, including the Great Lakes. These 
positions offered opportunities to collaborate with tribal, 
State, and local governments in addressing a range of economic 
and natural resource issues.
    I appreciate the time several of you and your staff have 
taken in recent weeks to discuss issues related to the oceans, 
marine fisheries, and the diversity of species that inhabit our 
nation's coasts, and the tremendous economic and social value 
of these resources. The fishing industry, both commercial and 
recreational, is an integral component of the engine that 
drives our economy, and I am committed to ensuring that 
sustainability of this critical resource and the livelihoods 
that depend on it.
    The diverse experiences I have had over my career have 
shaped the way I view and address environmental, natural 
resources, and economic issues. I very much enjoy working on 
challenges involving diverse and often competing perspectives. 
I place a priority on taking the time to understand alternative 
viewpoints to ensuring that scientific information is applied 
appropriately, and to working in a collaborative fashion to 
devise sound policy and to prevent and resolve disputes. If I 
am confirmed, I look forward to working with you and supporting 
your efforts to help ensure the viability of the Nation's 
coastal and marine resources.
    Thank you again for the opportunity to testify and for your 
consideration of my nomination. And I would be happy to respond 
to any questions you may have.
    [The prepared statement and biographical information of Dr. 
Schaefer follow:]

   Prepared Statement of Dr. Mark E. Schaefer, Nominee for Assistant 
    Secretary for Oceans and Atmosphere, U.S. Department of Commerce
    Thank you Mr. Chairman.

    Chairman Rockefeller, Ranking Member Thune, Members of the 
Committee, it is an honor to be considered for the position of 
Assistant Secretary for Oceans and Atmosphere within the U.S. 
Department of Commerce. Thank you for the opportunity to testify this 
morning.
    I would like to take a moment to introduce my wife of nearly 35 
years, Jo Ann, without whom I would not be here today. Beside her are 
my daughter Hana and son Greg. Both of them have graduated from college 
and have embarked on their own careers.
    My appreciation for the ocean began as a child through frequent 
trips with my father and mother to a cove in Laguna Beach, California. 
Later, through travels along the Pacific, Atlantic, and Gulf coasts and 
in Hawaii, I became more familiar with the ocean environment and its 
resources, and this led me to pursue studies in the biological sciences 
in college. Ultimately, I received a B.A. from the University of 
Washington and Ph.D. from Stanford University.
    I have held positions in the public and private sectors for more 
than 30 years, primarily at the intersection of science and policy. I 
have spent much of my career identifying ways to foster scientific and 
technological innovation to further national goals, including economic 
growth and the effective management and conservation of natural 
resources. I have also promoted efforts to make scientific information 
more accessible to the public to encourage greater stakeholder 
engagement in decision making processes. I am particularly interested 
in the application of information technologies, such as decision 
support systems, to further the organization and communication of 
scientific information.
    Most recently, I have led the U.S. Institute for Environmental 
Conflict Resolution, an organization that fosters collaborative efforts 
to prevent and resolve environmental and natural resources disputes 
involving Federal agencies. I have devoted the last several years to 
identifying ways to promote communication across Federal agencies and 
with tribes, state and local government agencies, and the private 
sector to efficiently address these issues. I have worked to promote 
public engagement in decision-making by making information and tools 
readily available to people and by encouraging agencies to place an 
emphasis on collaborative, stakeholder-driven approaches to problem 
solving.
    Early in my career I was a senior staff member with the Carnegie 
Commission on Science, Technology, and Government which offered the 
opportunity to learn from some of our nation's leaders about their 
experiences in working to advance public policy in this area and to 
effectively manage large public institutions. This included a number of 
meetings with Members of Congress to discuss the role of science and 
technology in policy-making processes. Twenty-five years ago, as a 
congressional fellow at the former Office of Technology Assessment, I 
worked on science policy matters before Congress and had the 
opportunity to lead a study of ways to improve the control of toxic 
substances that affect the nervous system.
    As Assistant Director for Environment in the Office of Science and 
Technology Policy (OSTP) in the Executive Office of the President I 
worked on a wide range of issues including ways to advance technologies 
to further national energy and environmental goals, and ways to better 
apply science and technology to prepare for and respond to natural 
disasters, including floods and hurricanes. In my early days at OSTP I 
was involved in coordinating the organization of scientific information 
across Federal and state agencies and the private sector to guide 
efforts to recover from the Mississippi River flood of 1993.
    As Deputy Assistant Secretary of the Interior for Water and 
Science, I worked on salmon and other fishery issues in the Northwest 
and East, and water quality challenges from the Gulf of Mexico to the 
Everglades and Chesapeake Bay. I helped foster research and monitoring 
activities throughout the country, including the Great Lakes. Working 
at Interior offered opportunities to collaborate with tribal, state, 
and local governments in addressing a range of economic and natural 
resource issues.
    In the private sector, I served as the first President and CEO of 
an organization called NatureServe. NatureServe supports the consistent 
gathering of information about the status of animals and plants across 
the United States and in several countries throughout the Western 
Hemisphere. NatureServe's data are used to help guide decisions about 
commercial development, natural resource management, and conservation.
    I appreciate the time several of you and your staff have taken in 
recent weeks to discuss issues related to the oceans, marine fisheries, 
the diversity of species that inhabit our nation's coasts and 
resources, and the tremendous economic and social value of these 
resources. The fishing industry, both commercial and recreational, is 
an integral component of the engine that drives our economy, and I am 
committed to ensuring the sustainability of this critical resource and 
the livelihoods that depend on it.
    I have been fortunate to live in several states that comprise the 
Pacific, Gulf, and Atlantic coasts: from California, Oregon, and 
Washington; to Texas and Alabama; and Massachusetts, Virginia, and 
Georgia. This offered me the opportunity to observe first-hand the 
value people place on the coastal-marine environment.
    The diverse experiences I have had over my career have shaped the 
way I view and address environmental, natural resources, and economic 
issues. I enjoy working on challenges involving diverse and often 
competing perspectives. I place a priority on taking the time to 
understand alternative viewpoints, to ensuring that scientific 
information is applied appropriately, and to working in a collaborative 
fashion to devise sound policy and to prevent and resolve disputes. If 
I am confirmed, I look forward to working with you and supporting your 
efforts to help ensure the viability of the Nation's coastal and marine 
resources.
    Thank you again for the opportunity to testify and for your 
consideration of my nomination. I would be happy to respond to any 
questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Mark 
Schaefer.
    2. Position to which nominated: Assistant Secretary for Oceans and 
Atmosphere, National Oceanic and Atmospheric Administration.
    3. Date of Nomination: May 23, 2013.
    4. Address: (List current place of residence and office addresses):

        Residence: Information not released to the public.

        Office: 130 South Scott Avenue, Tucson, AZ 85701.

    5. Date and Place of Birth: April 24, 1954; Big Spring, Texas.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Jo Ann Schaefer, not employed.
        Children: Hana Schaefer, age 31; Gregory Schaefer, age 25.

    7. List all college and graduate degrees. Provide year and school 
attended.

        Ph.D. Neurosciences, 1987, Stanford University
        B.A., Zoology and Botany, 1977, University of Washington

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated. (*designates management-level 
job)

        *Deputy Executive Director for Environmental Conflict 
        Resolution, Morris K. Udall and Stewart L. Udall Foundation, 
        2008 to present.

        Independent Consultant (including part-time position, Executive 
        Vice President, ZedX, Inc.), 2007-2008.

        *CEO, Global Environment and Technology Foundation, 2006-2007.

        *President and CEO, NatureServe, 2000-2006.

        *Acting Assistant Secretary for Water & Science, U.S. 
        Department of the Interior, 2000.

        *Deputy Assistant Secretary for Water and Science, U.S. 
        Department of the Interior, 1996-2000.

        *Acting Director, U.S. Geological Survey, 1997-1998.

        Assistant Director for Environment, Office of Science and 
        Technology Policy, Executive Office of the President, 1993-
        1996.

        Staff Member, Presidential Personnel Office, Executive Office 
        of the President, 1993.

        Staff Member, Presidential Transition Team, 1993.

        Director, Washington Office and Senior Staff Associate, 
        Carnegie Commission on Science, Technology, and Government, 
        1989-1993.

        Tutor in Environmental Policy (and Instructor, Winter 1993), 
        Stanford in Washington, Stanford University, 1988-1993.

        Study Director and Analyst, Office of Technology Assessment, 
        U.S. Congress (and Congressional Science Fellow, 1987-1988), 
        1987-1989.

        Graduate Student, Stanford University, 1983-1987.

        Teaching Assistant, Stanford University, 1984-1985.

        Staff Member, Environmental Research Laboratory, U.S. 
        Environmental Protection Agency, 1980-1983.

        Staff Member, Office of Research and Development, U.S. 
        Environmental Protection Agency, 1977-1980.

    9. Attach a copy of your resume. A copy is attached.
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last five years. None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last five years.

        Member and unit holder, Anew Outdoors, LLC (ended 2010)

        Board Member, Foundation for Our Future (NGO) (ended 2008)

        Officer, Changing Planet (NGO) (ended 2008)

    12. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis or sex, race, color, religion, 
national origin, age, or handicap.

        Member, American Association for the Advancement of Science, 
        Since 1983 (Intermittent, ended 2009).

        Member, Commission on Education and Communication, World 
        Conservation Union, 2004-2008.

        Member, Board on Earth Sciences and Resources, National 
        Research Council, National Academy of Sciences, 2002-2007.

        Member, Advisory Committee, National Environmental Conflict 
        Resolution, U.S. Institute for Environmental Conflict 
        Resolution, Morris K. Udall Foundation, 2002-2005.

        Member, National Commission on Science for Sustainable 
        Forestry, 2001-2003.

        Member, Good Shepherd Lutheran Church; Reston, Virginia, 1993-
        2008.

        Member, Stanford University Alumni Association, 2000-2006.

        Life Member, Stanford University Alumni Association, 2006-2013.

    None of the associations I have been a member of restrict 
membership on the basis or sex, race, color, religion, national origin, 
age, or handicap.
    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt.

        Acting Assistant Secretary for Water and Science, U.S. 
        Department of the Interior, 2000.

        Deputy Assistant Secretary for Water and Science, U.S. 
        Department of the Interior, 1996-2000.

        Acting Director, U.S. Geological Survey, 1997-1998.

        Assistant Director for Environment, Office of Science and 
        Technology Policy, Executive Office of the President, 1993-
        1996.

        Staff Member, Office of Presidential Personnel, Executive 
        Office of the President, 1993.

        Member, Presidential Transition Team, 1993.

        All of the above were political appointments by President 
        Clinton.

    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past ten years. Also list all offices 
you have held with, and services rendered to, a state or national 
political party or election committee during the same period.

        Presidential Campaign 2008, Barack Obama, 2/12/08: $250.00; 10/
        01/08: $250.00

        Presidential Campaign 2012, Barack Obama, 3/24/12: $250.00

        No political positions held or services rendered.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Congressional Science Fellow, 1987-1988

        Group Bronze Medal, U.S. EPA, 1983

        Special Achievement Award, U.S. EPA, 1979, 1980

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.
    I have done my best to identify books, articles, columns, 
publications or relevant speeches, including a thorough review of my 
personal tiles and searches of publicly available electronic databases. 
Despite my searches, there may be other materials I have been unable to 
identify, find, or remember. I have located the following:

        Schaefer, M. (2010). Foreword: The Keepers of This Land. 
        Conservation of Shared Environments, L. Lopez-Hoffman, et al., 
        (editors), University of Arizona Press, 2010.

        Schaefer, M., Baker, D.J., Gibbons, J.H., Groat, C.G., Kennedy, 
        D., Kennel, C.F., and Rejeski, D. (2008). An Earth Systems 
        Science Agency. Science, Vol. 321 (4 July 2008), pp. 44-45.

        Bond, J.S., Schaefer, M., Rejeski, D., and Nichols, R.W. 
        (2008). OSTP 2.0, Critical Upgrade: Enhanced Capacity for White 
        House Science and Technology Policymaking: Recommendations for 
        the Next President, Woodrow Wilson International Center for 
        Scholars, June 2008.

        Schaefer, M. (2008). Water Technologies and the Environment: 
        Ramping Up by Scaling Down. Technology in Society, Vol. 30, pp. 
        415-422 (Elsevier, Ltd.).

        Schaefer, M. (2005). In Search of a Lifeline (Editorial). 
        Science, Vol. 308 (April 2005), p. 325.

        Schaefer, M. (2002). Jeffersonian GIS. Geospatial Solutions, 
        April 2002.

        Schaefer, M. (2001). Emerging Tools for Developing, 
        Integrating, and Distributing Conservation Information. The 
        Role of Environmental NGOs: Russian Challenges, American 
        Lessons, National Academy Press.

        Schaefer, M. (1999). Decision Support Systems and the Changing 
        Landscape, Cambridge Conference, Cambridge, England, July, 
        1999, (Ordnance Survey, United Kingdom).

        Dresler, P. and Schaefer, M. (1997). Regional Forums: Linking 
        Science and Management. Geotimes, April 1998, pp. 24-27.

        Schaefer, M. (1996). The Economic Promise of Environmental 
        Technologies. Technology and Global Economic Competitiveness, 
        New York Academy of Sciences.

        Schaefer, M. (1993). Children and Toxic Substances: Confronting 
        a Major Public Health Challenge. Environmental Health 
        Perspectives Supplements 101(4).

        Schaefer, M. (1992). Role of the U.S. Congress in Setting Goals 
        and Priorities for Nutrition and Aging. Aging: Clinical and 
        Experimental Research.

        Schaefer, M. (1991). The Federal Environmental Research Puzzle: 
        Making the Pieces Fit. Environment, 33(9), pp. 16-20, 38-42.

        Schaefer, M. (1990). Rapid-Response Scientific and Technical 
        Analysis for Congress. Carnegie Commission on Science, 
        Technology, and Government.

        U.S. Congress. (1990). Neurotoxicity: Identifying and 
        Controlling Poisons of the Nervous System. (Schaefer, M., 
        Project Director). Office of Technology Assessment, U.S. 
        Government Printing Office, Washington, D.C.

        Schaefer, M. (1988). Congress and Environmental Policy: 
        Reflections on the Past, Directions for the Future. 
        Congressional Science Policy (G.S. Sponsler, ed.), Carnegie 
        Commission on Science, Technology, and Government, New York, 
        New York.

        Schaefer, M. (1981). EPA's Soil Research at Corvallis. EPA 
        Journal 7, 12-13.

        Schaefer, M. (1980). Marine Pollution. Environmental Outlook. 
        1980. U.S. Environmental Protection Agency. EPA-600/9-80-006.

        Schaefer, M. (editor). U.S. Environmental Protection Agency. 
        Research Summary:

                Controlling Nitrogen Oxides. (1980). EPA-600/8-80-004.

                Controlling Hazardous Wastes. (1980). EPA-600/8-8-017.

                Chesapeake Bay. (1980). EPA-600/8-80-019.

                Industrial Wastewater. (1980). EPA-600/8-80-026.

                Integrated Pest Management. (1980). EPA-600/8-80.

                Controlling Sulfur Oxides. (1980). EPA-600/8-80-029.

                Oil Spills. (1979). EPA-600/8-79-007.

                Acid Rain. (1979). EPA-600/8-79-028.
Contributor
        Federal Interagency Committee for the Management of Noxious and 
        Exotic Weeds, R. Westbrooks, ed., (1998). Invasive Plants: 
        Changing the Landscape of America.

        National Science and Technology Council. (1998). Integrated 
        Science for Sustainable Ecosystems.

        Executive 0ffice of the President. (1996). Education for 
        Sustainability: An Agenda for Action.

        Executive Office of the President. (1995). Bridge to a 
        Sustainable? Future: National Environmental Technology 
        Strategy.

        National Science and Technology Council (1995). Research 
        Strategy for Risk Assessment, Subcommittee on Natural Resources 
        and the Environment.

        National Science and Technology Council. (1995). Partnerships 
        Supporting Education About the Environment: Summary of 
        Proceedings, September 28-October 1, 1994.

        Executive Office of the President. (1994). Technology for a 
        Sustainable Future: A Framework for Action.

        Carnegie Commission on Science, Technology, and Government. 
        (1993). New Frontiers in Regulatory Decision Making: The Role 
        of Science and Technology.

        Carnegie Commission on Science, Technology and Government. 
        (1993). Risk and the Environment: Improving Regulatory Decision 
        Making.

        Carnegie Commission on Science, Technology, and Government. 
        (1992). Environmental R&D: Strengthening the Federal 
        infrastructure.

        Carnegie Commission on Science, Technology, and Government. 
        (1992). A Science and Technology Agenda for the Nation: 
        Recommendations for the President and Congress.

        Carnegie Commission on Science, Technology, and Government 
        (1992). Enabling the Future: Linking Science and Technology to 
        Societal Goals.

        Carnegie Commission on Science, Technology, and Government. 
        (1991). Science, Technology, and Congress: Analysis and Advice 
        from the Congressional Support Agencies.

        Carnegie Commission on Science, Technology, and Government. 
        (1991). Science, Technology, and Congress: Expert Advice and 
        the Decision-Making Process.

        U.S. Congress. (1990). Neurotoxicity: Identifying and 
        Controlling Poisons of the Nervous System. Office of Technology 
        Assessment, U.S. Government Printing Office, Washington, D.C.

        U.S. Environmental Protection Agency. (1980). Acid Rain. EPA-
        600/9-79-036.

        U.S. Environmental Protection Agency. (1980). Research 
        Highlights 1979. EPA-600/9-80-005.

        U.S. Environmental Protection Agency. (1978). Energy/
        Environment III. Proceedings of the Third National Conference 
        on the Interagency Research and Development Program. EPA-600/9-
        78-002.
Technical Scientific Publications
        Schaefer, M. (1987). Molecular Genetic Analysis of FMRFamide 
        and Related Neuropeptide Genes. Ph.D. Thesis. Stanford 
        University, Stanford, California.

        Kreiner, T., Schaefer, M. and Scheller, R.H. (1986). The 
        Aplysia Neuroendocrine System. Frontiers in Neuroendocrinology, 
        Vol. 9 (William F. Ganong, ed.).

        Schaefer, M. and Brownell, P.H. (1986). Modulation of a 
        Respiratory Motor Program by Pepetide-Secreting Neurons in 
        Aplysia. Journal of Neurobiology, 17, 121-126.

        Eberwine, J., Schaefer, M., Tecott, L. Tatemoto, K., Valentino, 
        K.L. and Barchas, J.D. (1986). Isolation and Characterization 
        of cDNA and Gene Clones Coding for Rat Pancreastatin. Society 
        of Neuroscience, Abstract 12.

        Schaefer, M. Shirk, P.D., Roth, D.R. and Brownell, P.H. (1985). 
        Activity Related Changes in Protein Phosphorylation in an 
        Identified Aplysia Neuron. Cellular and Molecular Neurobiology, 
        5, 321-331.

        Kaldany, R.-R, Campanelli, J.T., Schaefer, M., Shyamala, M. and 
        Scheller, R.H. (1985). Low Molecular Weight Proteins of Aplysia 
        Neurosecretory Cells. Peptides, 6, 445-449.

        Scheller, R.H. and Schaefer, M. (1985). Neuropeptide Gene 
        Expression and Behavior in Aplysia. Model Neural Networks and 
        Behavior (A.I. Selverston, Ed.), Plenum Publishing Co., New 
        York.

        Schaefer, M. Picciotto, M.R., Kreiner, T., Kaladany, R.-R., 
        Taussig, R. and Scheller, R.H. (1985). Aplysia Neurons Express 
        a Gene Encoding Multiple FMRFamide Neuropeptides. Cell, 41, 
        457-467.

        Scheller, R.H., Kaldany, R.-R., Kreiner, T., Mahon, A.C., 
        Nembu, J.R., Schaefer, M. and Taussig, R. (1984). 
        Neuropeptides: Mediators of Behavior in Aplysia. Science, 225, 
        1300-1308.

        Brownell, P.H. and Schaefer, M. (I984). Neuronal Mechanisms of 
        a Siphon Motor Program Induced by Peptidergic Bag Cell neurons 
        in Aplysia. Society of Neuroscience, Abstract 10, 150.

        Kaldany, R.-R., Schaefer, M., Evans, C., Mak, G. and Scheller, 
        R.H. (1984). Processing of a Neuropeptide Precursor in the R3-
        14 Cells of Aplysia. Society of Neuroscience, Abstract 10, 150.

        Scheller, R.H., Kaldany R.R., Kreiner, T., Schaefer, M. (I 
        983). Cellular and Molecular Studies of the Neuropeptides Used 
        by Aplysia Abdominal Ganglion Neurons R3-14. Journal of 
        Cellular Biochemistry, Supp. 8B, 95.

        Schaefer, M., Brownell, P.H. and Shirk, P. (1983). Evidence for 
        Neuro Specific Protein Phosphorylation Following Peptidergic 
        Bag Cell Activity in Aplysia. Society of Neuroscience, Abstr. 
        9.

        Brownell, P.H. and Schaefer, M. (1982). Activation of a Long-
        Lasting Motor Program by Cell Neurons in Aplysia. Society of 
        Neuroscience, Abstr. 8, 736.
Speeches
        Speaker
        ``Institutionalizing Collaboration and Environmental Conflict 
        Resolution in the Federal Government''
        Symposium on Federal Alterative Dispute Resolution Programs: 
        Successes and Challenges
        U.S. Department of Justice
        Washington, D.C., March 2012

        Speaker
        ``The Keepers of this Land''
        Conservation of Shared Environments
        James E. Rogers School of Law
        University of Arizona
        Tucson, AZ, February 2010

        Moderator and Speaker
        ``The Serious Business of Environmental Education''
        National Forum on Partnerships Supporting Education About the 
        Environment
        San Francisco, CA, September 1994

        Panelist and Speaker
        ``Science and Politics''
        Business Government Relations Council
        26th Annual Meeting
        White Sulfur Springs, West Virginia, September 1992

        Panelist and Speaker
        ``Assessment as the Link Between Research and Policy''
        Conference on the National Institutes of the Environment
        Chevy Chase, Maryland, May 1992

        Speaker
        ``Analysis and Advice from the Congressional Support Agencies''
        Seminar on Science, Technology, and Public Policy
        Western Executive Seminar Center
        Office of Personnel Management
        Denver, Colorado, 1992

        Speaker
        ``Bridging the Environmental Research/Policy Interface: Three 
        Organizational and Procedural Proposals''
        Meeting of American Association for the Advancement of Science
        Chicago, Illinois, February 1992

        Speaker
        ``Analysis and Advice from the Congressional Support Agencies''
        Seminar on Science, Technology, and Public Policy
        Western Executive Seminar Center
        Office of Personnel Management
        Denver, Colorado, December 1991

        Chair and Speaker
        ``Roundtable Discussion on Long-Range Perspectives for 
        Environmental Policy''
        Thirteenth Annual Research Conference
        Association for Public Policy Analysis & Management
        Washington, D.C., October 1991

        Speaker
        ``S&T for the 90s''
        Institute for Defense Analyses
        Alexandria, Virginia, February 1991

        Speaker
        ``Neurotoxicity Update--A Regulatory Perspective''
        Society of Toxicology, National Capitol Area Chapter
        Washington, D.C., January 1991

        Speaker
        ``Testing and Regulating Neurotoxic Substances''
        Pharmacology and Toxicology Committee
        The Cosmetic, Toiletry and Fragrance Association
        Washington, D.C., January 1991

        Speaker
        ``Science, Technology, and Congress''
        Brookings Institution Conference on Issues in Science & 
        Technology
        Williamsburg, Virginia, September 1990

        Speaker
        ``Science, Technology, and Congress''
        MIT Management of Technology Program
        The Brookings Institution
        Washington, D.C., January 1990

        Moderator and Sponsor
        Workshop on Federal Interagency Coordination of Neurotoxicity 
        Research and Regulatory Programs
        Congressional Office of Technology Assessment
        Washington, D.C., May 1989

        Chair
        Policy Roundtable: Pros and Cons of a Proposed Department of 
        Science & Technology
        Tenth Annual Research Conference
        Association for Public Policy & Analysis
        Seattle, Washington, October 1988

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony.
Congressional Testimony
        El Nino Forecasts and Plans for Operating Dams and other 
        Facilities in the Western United States
        Subcommittee on Water and Power
        Committee on Resources
        U.S. House of Representatives
        October 30, 1997

        Pfiesteria and its Impacts on Our Fishery Resources
        Subcommittee on Fisheries Conservation
        Committee on Resources
        U.S. House of Representatives
        October 9, 1997

        Science and Resource Management in the National Park System
        Subcommittee on National Parks and Public Lands
        Committee on Resources
        U.S. House of Representatives
        February 27, 1997

        Strengths and Weaknesses of the Federal Environmental Research 
        and Development System
        Subcommittee on Technology, Environment, and Aviation
        Committee on Science, Space, and Technology
        U.S. House of Representatives
        November 1994

        Coordinating Federal Environmental R&D Programs--The Role of 
        the National Science and Technology Council
        Subcommittee on Toxic Substances, and Research and Development
        Committee on Environment and Public Works
        U.S. Senate
        July 1994

        Strengthening Risk Assessment within the U.S. Environmental 
        Protection
        Agency
        Subcommittee on Technology, Environment, and Aviation
        Committee on Science, Space, and Technology
        U.S. House of Representatives
        March 1994

        Federal Environmental R&D Programs
        Subcommittee on Technology, Environment, and Aviation
        Committee on Science, Space, and Technology
        U.S. House of Representatives
        March 2, 1993

        Identifying and Controlling Neurotoxic Substances
        Subcommittee on Toxic Substances, Environmental Oversight, 
        Research and Development
        Committee on Environment and Public Works
        U.S. Senate
        October 1990

        Vulnerability of Children to Neurotoxic Substances
        Select Committee on Children, Youth, and Families
        U.S. House of Representatives
        September 1990

    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I believe my past experience leading and overseeing complex 
organizations focused on natural resources management, conservation, 
and science will allow me to contribute to and effectively serve the 
National Oceanic and Atmospheric Administration. The diverse 
experiences I have been fortunate to have, along with my interests in 
science, technology, and government, will also be helpful in this 
regard.
    Much of my career has been dedicated to furthering the linkages 
between water, science, and environmental policy which will be helpful 
in guiding work related to fisheries resources and protection of 
endangered and threatened species. During the Clinton Administration, I 
worked on many water resource issues including salmon recovery and 
conservation, effective dam operation, and a range of water policy 
issues nationwide. I worked to guide scientific activities supporting 
the recovery of the Mississippi River basin following the floods of 
1993. I was actively involved in efforts to monitor and limit the 
adverse impacts of invasive species. I was involved in the Federal 
response to the Pfiesteria problem in the Carolinas, Gulf of Mexico 
hypoxia issues, and in the scientific aspects of recovery of the 
Everglades. More recently, I worked on issues related to the expansion 
of military activities on Guam and efforts to avoid impacts on coral 
reefs associated with expanded naval operations.
    During the Clinton Administration, I was actively involved in the 
application of national assets to aid in responding to natural 
disasters, including hurricanes and floods.
    If confirmed, I will work to ensure the effective management and 
conservation of our coastal and marine resources that are critically 
important from both the economic and ecological perspectives.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    Effective management of agency programs is critical to maintaining 
public trust in government. Federal managers have a responsibility to 
ensure that public funds are used efficiently and are properly 
accounted for. This is particularly important during this period of 
economic recovery and public concern about Federal spending. I have 
managed and overseen large Federal agencies including the U.S. 
Geological Survey and the Bureau of Reclamation. During the Clinton 
Administration, I was charged by the Secretary of the Interior with 
overseeing the closure of the Bureau of Mines and the relocation of as 
many employees as possible to other Federal agencies. We accomplished 
this in an orderly fashion with respect for the careers of several 
thousand Federal employees.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?
    I believe the three major challenges facing the conservation and 
management side of the National Oceanic and Atmospheric Administration 
are working to minimize the impacts of wide range of threats to the 
viability of coastal and marine environments, ensuring the 
sustainability of coastal and marine fisheries, and protecting 
threatened and endangered species, while balancing the economic uses of 
the resources that are facing these threats. All of these activities 
are dependent upon the strong foundation of research, development, and 
monitoring activities.
    Healthy coastal and marine environments are critical to the 
economies of coastal states and to the Nation more generally. These 
environments are facing multiple stressors that must be systematically 
addressed in a practical, cost-effective fashion.
    Sustaining fisheries resources, a central element of our economy, 
is one of the great challenges of our time. Federal, state, and local 
governments must work in concert with the fishing industry, 
nongovernmental organizations, and other stakeholders to ensure the 
long-term sustainability of these resources.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts.
    I have no financial arrangements or compensation agreements. I have 
TIAA/CREF ($159,289) and Fidelity retirement accounts ($156,437), along 
with a Federal Thrift Savings Plan ($358,583). All of my investments 
are in mutual funds in retirement accounts.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? lf so, 
please explain. None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last ten years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identity potential conflicts of 
interest.
    Any potential conflicts of interest will be resolved in accordance 
with the terms of an ethics agreement that I have entered into with the 
Department of Commerce's designated agency ethics official and that has 
been provided to this Committee. I am not aware of any other potential 
conflicts of interest.
    5. Describe any activity during the past ten years in which you 
have been engaged for the purpose of directly or indirectly influencing 
the passage, defeat, or modification of any legislation or affecting 
the administration and execution of law or public policy.
    I have had some indirect involvement in supporting various 
legislative proposals in Congress related to compensation for the 
former American hostages in Iran (between 2008 and 2013). My father was 
one of the 52 hostages held captive from November 1979 to January 1981.
    While leading the U.S. Institute for Environmental Conflict 
Resolution (1988 to present), I have performed typical duties of a 
Federal manager in meeting with congressional staff in connection with 
the annual appropriations process.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Department of Commerce's 
designated agency ethics official to identify potential conflicts of 
interest. Any potential conflicts of interest will be resolved in 
accordance with the terms of an ethics agreement that I have entered 
into with the Department of Commerce's designated agency ethics 
official and that has been provided to this Committee. I am not aware 
of any other potential conflicts of interest.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain. No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.
    As the son of a diplomat held hostage at the U.S. embassy in Tehran 
from 1979 to 1981, I have been a party to several class action lawsuits 
seeking restitution from the Islamic Republic of Iran for the hostage 
taking. The lawsuits have not been successful.
    In 2008, my wife and I filed a lawsuit against a builder for 
improper construction of our home and for impacts on my wife's health. 
We received compensation for damages as a result of a settlement.
    I am a complainant in a pending Office of the Special Counsel (OSC) 
matter: 2012 to present, I and other senior managers at the Udall 
Foundation expressed concerns about financial and personnel matters to 
the Chair and the Vice Chair of the Udall Foundation Board of Trustees, 
the Udall Foundation Executive Director, and Interim Executive 
Director. Certain members of the leadership took retaliatory action 
against me and other senior managers who had made disclosures. As a 
result, I and other senior managers filed complaints with the OSC 
related to the retaliation against us for expressing these concerns. 
While this matter is still pending, I am not aware of any counter-
complaints or factual allegations asserted against me.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain. No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain. No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination.
    None to my knowledge.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                        resume of mark schaefer




Deputy Executive Director for Environmental Conflict Resolution                                     2008-present
Morris K. Udall and Stewart L. Udall Foundation
Tucson, Arizona

Independent Consultant                                                                                 2007-2008
(including Woodrow Wilson International Center for Scholars,
Worrell Water Technologies; part-time position,
Executive Vice President, ZedX, Inc.)

CEO                                                                                                    2006-2007
Global Environment and Technology Foundation
Arlington, Virginia

President and CEO                                                                                      2000-2006
NatureServe
Arlington, Virginia

Deputy Assistant Secretary of the Interior for Water & Science (& Acting Assistant Secretary,          1996-2000
 2000)
Washington, D.C.

Acting Director, U.S. Geological Survey                                                                1997-1998
(October 1997 to February 1998)
Washington, D.C.

Assistant Director for Environment                                                                     1993-1996
Office of Science and Technology Policy
Executive Office of the President
Washington, D.C.

Director, Washington Office & Senior Staff Associate                                                   1989-1993
Carnegie Commission on Science, Technology, & Government
Washington, D.C.

Tutor in Environmental Policy (& Instructor, Winter 1993)                                              1988-1993
Stanford in Washington, Stanford University
Washington, D.C.

Study Director & Analyst                                                                               1987-1989
Office of Technology Assessment
U.S. Congress, Washington, D.C.

Congressional Science Fellow                                                                           1987-1988
Office of Technology Assessment
U.S. Congress, Washington, D.C.

Graduate Student                                                                                       1983-1987
Stanford University, Stanford, California

Teaching Assistant                                                                                     1984-1985
Stanford University, Stanford, California

Staff Member, Environmental Research Laboratory                                                        1980-1983
U.S. Environmental Protection Agency
Corvallis, Oregon

Staff Member, Office of Research and Development                                                       1977-1980
U.S. Environmental Protection Agency
Washington, D.C.

                                             Boards and Commissions
Member                                                                                                 2004-2008
Commission on Education and Communication
World Conservation Union (IUCN)

Member                                                                                                 2002-2007
Board on Earth Sciences and Resources
National Research Council
National Academy of Sciences

Member                                                                                                 2002-2005
National Environmental Conflict Resolution Advisory Committee

Member                                                                                                 2001-2003
National Commission on Science for Sustainable Forestry

Trustee, Morris K. Udall Foundation                                                                    1996-1999
Tucson, Arizona

                                                    Education
Ph.D., Neurosciences                                                                                        1987
Stanford University, Stanford, California

B.A., Zoology & Botany                                                                                      1977
University of Washington, Seattle, Washington

                                      Fellowships and Professional Awards
Congressional Science Fellow                                                                           1987-1988
Group Bronze Medal, U.S. EPA                                                                                1983
Special Achievement Award, U.S. EPA                                                                   1979, 1980


                         Selected Publications
Schaefer, M., Baker, D.J., Gibbons, J.H., Groat, C.G., Kennedy, D., 
Kennel, C.F., and Rejeski, D. (2008). An Earth Systems Science Agency, 
Science, Vol. 321 (4 July 2008), pp. 44-45.

Bond, J.S., Schaefer, M., Rejeski, D., and Nichols, R.W. (2008). OSTP 
2.0, Critical Upgrade: Enhanced Capacity for White House Science and 
Technology Policymaking: Recommendations for the Next President, 
Woodrow Wilson International Center for Scholars, June 2008.

Schaefer, M. (2008). Water Technologies and the Environment: Ramping Up 
by Scaling Down. Technology in Society Vol. 30, pp. 415-422 (Elsevier, 
Ltd.).

Schaefer, M. (2005). In Search of a Lifeline (Editorial), Science, Vol. 
308 (April 2005), p. 325

Schaefer, M. (2002). Jeffersonian GIS, Geospatial Solutions, April 2002

Schaefer, M. (2001). Emerging Tools for Developing, Integrating, and 
Distributing Conservation Information, in: The Role of Environmental 
NGOs: Russian Challenges, American Lessons, National Academy Press.

Schaefer, M. (1996). The Economic Promise of Environmental 
Technologies, in: Technology and Global Economic Competitiveness, New 
York Academy of Sciences.

Schaefer, M. (1993). Children and Toxic Substances: Confronting a Major 
Public Health Challenge. Environmental Health Perspectives Supplements 
101(4).

Schaefer, M. (1991). The Federal Environmental Research Puzzle: Making 
the Pieces Fit. Environment 33(9), pp. 16-20, 38-42.
                              Contributor
Federal Interagency Committee for the Management of Noxious and Exotic 
Weeds, R. Westbrooks, ed., (1998). Invasive Plants: Changing the 
Landscape of America.

National Science and Technology Council. (1998). Integrated Science for 
Sustainable Ecosystems.

Executive Office of the President. (1996). Education for 
Sustainability: An Agenda for Action.

Executive Office of the President. (1995). Bridge to a Sustainable 
Future: National Environmental Technology Strategy.

National Science and Technology Council. (1995). Research Strategy for 
Risk Assessment, Subcommittee on Natural Resources and the Environment.

National Science and Technology Council. (1995). Partnerships 
Supporting Education About the Environment: Summary of Proceedings, 
September 28-October 1, 1994.

Executive Office of the President. (1994). Technology for a Sustainable 
Future: A Framework for Action.

Carnegie Commission on Science, Technology, and Government. (1993). New 
Frontiers in Regulatory Decision Making: The Role of Science and 
Technology.

Carnegie Commission on Science, Technology, and Government. (1993). 
Environmental R&D: Strengthening the Federal Infrastructure.

Carnegie Commission on Science, Technology, and Government. (1993). A 
Science and Technology Agenda for the Nation: Recommendations for the 
President and Congress.

Carnegie Commission on Science, Technology, and Government. (1992). 
Enabling the Future: Linking Science and Technology to Societal Goals.

Carnegie Commission on Science, Technology, and Government. (1991). 
Science, Technology, and Congress: Analysis and Advice from the 
Congressional Support Agencies.

Carnegie Commission on Science, Technology, and Government. (1991). 
Science, Technology, and Congress: Expert Advice and the Decision-
Making Process.

U.S. Congress. (1990). Neurotoxicity: Identifying and Controlling 
Poisons of the Nervous System. Office of Technology Assessment, U.S. 
Government Printing Office, Washington, D.C.
                        Congressional Testimony
El Nino Forecasts and Plans for Operating Dams and other Facilities in 
the Western United States
Subcommittee on Water and Power
Committee on Resources
U.S. House of Representatives
October 30, 1997

Pfiesteria and its Impacts on Our Fishery Resources
Subcommittee on Fisheries Conservation
Committee on Resources
U.S. House of Representatives
October 9, 1997

Science and Resource Management in the National Park System
Subcommittee on National Parks and Public Lands
Committee on Resources
U.S. House of Representatives
February 27, 1997

Strengths and Weaknesses of the Federal Environmental Research and 
Development System
Subcommittee on Technology, Environment, and Aviation
Committee on Science, Space, and Technology
U.S. House of Representatives
November 1994

Coordinating Federal Environmental R&D Programs--The Role of the 
National Science and Technology Council
Subcommittee on Toxic Substances, and Research and Development
Committee on Environment and Public Works
U.S. Senate
July 1994

Strengthening Risk Assessment within the U.S. Environmental Protection 
Agency
Subcommittee on Technology, Environment, and Aviation
Committee on Science, Space, and Technology
U.S. House of Representatives
March 1994

Federal Environmental R&D Programs
Subcommittee on Technology, Environment, and Aviation
Committee on Science, Space, and Technology
U.S. House of Representatives
March 1993

Identifying and Controlling Neurotoxic Substances
Subcommittee on Toxic Substances, Environmental Oversight, Research and 
Development
Committee on Environment and Public Works
U.S. Senate
October 1990

Vulnerability of Children to Neurotoxic Substances
Select Committee on Children, Youth, and Families
U.S. House of Representatives
September 1990

    Senator Nelson. Senator Schatz, do you have any more 
questions before you have to go?
    Senator Schatz. Thank you, Mr. Chairman. I do have one 
additional question. I apologize for going out of order.
    Senator Nelson. No, you are certainly welcome.
    Senator Schatz. My question is about the bigeye tuna issue, 
if you will just give me a moment to pull up the question. The 
Western Pacific Fisheries Management Commission has, under the 
South Pacific Tuna Treaty, established an annual quota on 
bigeye tuna for Hawaii's longline fleet. And that quota is too 
low to support their full-year participation in the fishery.
    If confirmed, do I have your commitment to work with us to 
constructively support the well-managed Western Pacific 
longline fishery?
    Dr. Schaefer. Yes, Senator Schatz. I know this is a very 
important issue in Hawaii and to you personally. And I am happy 
to take the time to work carefully to ensure that that fishery 
is managed optimally.
    Senator Schatz. Thank you very much. We do have a well-
managed fishery, and it is a big industry for the state of 
Hawaii. And to the extent that it is both profitable and 
sustainable, it ought to be a model for the rest of the world. 
And we are going to have to make some adjustments on the fly to 
make sure that they remain economically viable as they have 
demonstrated that they are being managed sustainably.
    Dr. Schaefer. I would welcome the opportunity to work with 
you on that.
    Senator Schatz. Thank you very much, Dr. Schaefer.
    Thank you, Mr. Chairman.
    Senator Nelson. Senator Wicker, your comments and then your 
questions.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you very much, Mr. Chairman. I just 
left the Joint Economic Committee talking about infrastructure, 
and I got over here as soon as I could. So I am appreciative 
that Senator Schatz was here to ask questions, and I am glad 
that we did not adjourn the hearing before I could get here.
    I want to thank you, Senator Nelson, for chairing this 
hearing on the nomination of Dr. Schaefer to be Assistant 
Secretary for--of Commerce for Oceans and Atmosphere. It is 
important for the Committee to review the nominations for NOAA 
leadership promptly in order for this Agency to be managed 
appropriately.
    It may come to--as a surprise to some of our viewers today 
that NOAA is the largest agency within the Department of 
Commerce, and has a mission of science, service, and 
stewardship. The Agency is responsible for conducting research 
and gathering data to help us understand our oceans and 
atmosphere, as well as manage our resources. The 
responsibilities of NOAA include daily weather forecasts, 
fisheries management, coastal restoration, and support for 
marine commerce. NOAA is organized into six line offices and 
requires strong leadership to ensure that these line offices of 
working together and serving the needs of our country.
    NOAA has a vital presence throughout our Nation, including 
in my home state of Mississippi. NOAA facilities in Mississippi 
include the National Data Buoy Center, the Northern Gulf 
Institute, the National Institute for Undersea Science and 
Technology, and the National Coastal Data Development Center. 
The work performed at these centers and institutes is important 
for understanding our oceans and coasts and protecting our 
resources for our citizens.
    Today, NOAA faces many challenges, including a tough fiscal 
environment, needed improvements in fisheries management, and 
the restoration of the Gulf of Mexico following the Deepwater 
Horizon disaster. If not handled appropriately, sequestration 
has a potential to endanger the NOAA mission. Large cuts have 
already been made at the National Data Buoy Center, which is 
crucial for environmental monitoring.
    Recreational fishing issues have also been challenging. 
This year, two lawsuits were filed against the National Marine 
Fisheries Services regarding the Federal management of red 
snapper, and I will ask the witness about that in just a 
moment.
    NOAA will need to work with local partners to resolve these 
issues in coming years. It is also tasked with important 
responsibilities for Gulf restoration under the RESTORE Act. We 
are counting on NOAA leadership to manage RESTORE Act programs 
and funds properly. I look forward to hearing Dr. Schaefer's 
perspectives on how NOAA can face these challenges.
    And again, thank you, Senator Nelson, for holding the 
hearing.
    Senator Nelson. If you want to go on and ask some 
questions.
    Senator Wicker. Well, let me ask then, if I might, about 
the red snapper issue. Tell us what--enlighten the Committee, 
if you will, about the red snapper lawsuits, and how do you 
feel about fisheries management approaches that require 
coordination between the states and Federal Government?
    Dr. Schaefer. Thank you, Senator Wicker. Yes, the red 
snapper issue is, in many ways, similar to other issues on 
other coasts in that often the fundamental question is just how 
many fish are there and what is the quality of the most recent 
stock assessment. And one of the continuing challenges is 
making sure that we have access to the best--that NOAA has 
access to the best available science in order to make accurate 
stock assessments.
    I know there is a disagreement in the Gulf about just how 
many fish there are there, and there has also been some 
substantial improvement in the red snapper stocks. But at the 
same time, the pace of fishing has picked up. So things are 
improving, but there is still that basic question about the 
viability of the fishery and the available fish.
    And that is the nature of the disagreement as I understand 
it. I am not familiar with the details of the individual 
lawsuits, but I am committed to this fundamental issue of 
ensuring that we are bringing the best available science to 
bear in making fisheries decisions, and that we are working 
effectively with the states and the fishery management councils 
to ensure that we are using those data to make sound decisions.
    Senator Wicker. Do you think the discrepancy in the 
estimates is a result of different methodologies used by 
various scientists? What accounts for the different estimates 
as to how many snapper we have, for example?
    Dr. Schaefer. Sometimes that is the case, and methodologies 
do vary, and methodologies are always being improved. And I am 
not familiar with the specifics of the red snapper situation in 
terms of the methodologies, but that is an issue that I know is 
very important to you and to constituencies in the Gulf region. 
And I will take that very seriously if I am confirmed, and try 
to ensure that we are using the best available science to 
develop those assessments.
    Senator Wicker. Very good. Let me then pivot to the dead 
zone in the northern Gulf of Mexico. We understand that it is 
expected to be the largest in history this year. Can you 
enlighten the Committee about the dead zone in the northern 
Gulf? How do you plan to work with other agencies and academic 
institutions to deal with complex problems, such as the dead 
zone?
    Dr. Schaefer. The dead zone and other challenges in the 
Gulf of Mexico, I think, will benefit from the work that you 
and others have done on the Committee through the RESTORE Act 
to provide additional funding to look comprehensively at what 
is happening in the Gulf of Mexico.
    I did work on the Gulf of Mexico hypoxia issue, the dead 
zone issue, more than 15 years ago when I was at the Department 
of Interior, and I have been down to the Gulf regions for 
meetings on that subject. I am very interested in it. Even 
then, there were some fundamental differences of opinion as to 
what the true source of the problem is, and I know that some of 
that stands today.
    I look forward to working on that issue. The key point, and 
you have referred to this, is that there are scientific assets, 
so to speak, throughout the Gulf region, whether they are in 
universities, in State agencies, in Federal agencies, or 
elsewhere. And the challenge is finding a way to knit those 
capabilities together to make sure that we are taking advantage 
of expertise wherever it exists, and that we are developing a 
comprehensive view of what is going on in the Gulf of Mexico.
    Senator Wicker. Is there a consensus as to the cause of the 
dead zone? What are the various viewpoints? You say that there 
seems to be a difference among scientists about this.
    Dr. Schaefer. Well, one thought is that because of 
nutrients that are entering the Mississippi River, up along the 
river in the many agricultural areas, that that is actually a 
causative factor in the dead zone.
    There are a variety of forces that are clearly acting, and 
I think it is fair to say some of them still are not 
understood. I am hesitant, based on the information I had from 
some years ago, to say too much more than that, except to say 
that I am very interested in the issue, and I look forward to 
getting down there talking with scientists and understanding 
where things stand, and then doing what NOAA can to ensure that 
we both understand the problem and we can take actions to 
prevent it.
    Senator Wicker. Thank you very much, sir.
    Dr. Schaefer. Thank you.
    Senator Nelson. Senator, my heart goes out to you, and to 
Senator Landrieu, and Senator Vitter, for the dead zone is the 
size of Delaware, off your states.
    Now, we have enough trouble in Florida with dead zones of 
polluted water being dumped out of Lake Okeechobee, which it 
has to because the lake gets too high, and it threatens the 
earthen dam because of the pressure. But what it does is it 
creates a dead zone to the east in the St. Lucia River and to 
the west in the Caloosahatchee River. I have been out on that 
river 6 years ago when it was, in fact, a dead river. And the 
same thing is happening now because the water has gotten up to 
15 feet high, and the Corps of Engineers is going to have to 
start dumping water out of there to avert a disaster of it 
breaking the dam and flooding all of these agricultural and 
populated areas.
    I know what that river looked like when I went out there. 
It was dead. There were no mullet jumping. It was a dirty green 
look from all of the algae. There were no porpoises rolling. 
There was no osprey or eagle flying to get their dinner. And I 
just cannot imagine a dead zone the size of the state of 
Delaware off your and Louisiana state.
    So, I want to help you, and I need help from you all as we 
try to clean it up. And it is being done through an Everglades 
Restoration Project, which we have it going on pretty good. It 
has been going on for 20 years. It is going to take a lot more 
time. But you have got an emergency, and I want to help you.
    Senator Wicker. Well, I appreciate, Senator Nelson, you--I 
appreciate your concern and your assurance. And we will 
certainly look to you and others for assistance in this regard, 
as well as looking to NOAA for the facts and the science. So, 
thank you.
    Senator Nelson. Now, with regard to your questions on the 
fisheries, thanks to your help, you were a co-sponsor of the 
RESTORE Act. Once the judge makes his decision on what the fine 
is going to be, that money is going to flow pursuant to the law 
that we pass called the RESTORE Act. And two and a half percent 
of that total is going to go to try to address exactly the 
question that you answered--that you asked, which was, what is 
the fish population out there? And making those assessments 
through the National Marine Fisheries Service, helped by the 
commission that was set up by the RESTORE Act, in order to have 
up to date data on what the fish population is so that we do 
not go through what we have been going through, where decisions 
are made to cut off a fishery with outdated data, data that is 
six and seven years old. And that is one of the benefits of the 
RESTORE Act.
    So, Dr. Schaefer, tell us what you think about it since you 
are going to be working directly with the National Marine 
Fisheries Service about utilizing that two and a half percent 
of the RESTORE Act.
    Dr. Schaefer. Well, I think it is a tremendous opportunity 
to develop a much more comprehensive picture of the pressures 
on the Gulf ecosystem, the pressure on the fisheries there, and 
to integrate scientific efforts across universities, State 
agencies, and the Federal Government. Also, there will be an 
opportunity to develop a much more comprehensive understanding 
of the complexities of that system, and it is very complex 
because, as Senator Wicker pointed out, there is a very large 
dead zone.
    It has been very challenging to try to address that issue, 
and we simply need more information. We need more expertise in 
general in tackling the kinds of problems that you described in 
the Everglades and elsewhere in Florida. We need to make sure 
that we are taking advantage of the talents that exist 
throughout our country, and that we are coupling our capacities 
in Federal agencies with the outstanding expertise that exists 
in our universities. And there has been a long track record at 
NOAA of working collaboratively in this regard.
    I would like to continue with that if I am confirmed, and 
make sure through activities like the RESTORE Act, where NOAA 
will have some substantial funding, to make sure that we are 
using that expertise, and that we are building a solid 
framework for decisionmaking.
    Senator Nelson. OK. That is good. Now, Senator Rubio and I 
are going to have a hearing in a couple of weeks down in famous 
Apalachicola Bay, which used to be known and has been known 
over the centuries as some of the finest oysters. That is being 
threatened. It is being threatened by a number of things, not 
the least of which the lack of fresh water coming down the 
river that starts the Chattahoochee River up north of Atlanta. 
And this fishery collapsed last year, long-term drought plus 
the lack of the fresh water coming down the river, illegal 
harvesting. Twenty-five hundred jobs were impacted. We are 
going to bring attention to this, Senator Rubio and me.
    Now, it is my understanding that NOAA needs information to 
document a fishery failure before it can declare an emergency. 
So do you have information on this that you can update us on 
the status of this declaration?
    Dr. Schaefer. Since I have not worked within NOAA in recent 
years or within the Federal Government, I do not have access to 
the specifics on that issue. But I know that it is a very 
significant problem, and I know it is very important to your 
constituencies. I am committed, if I am confirmed, to making 
sure that NOAA uses all of its capabilities to understand the 
nature of that problem, and that, if it makes sense to make a 
disaster declaration, that we have the scientific basis for 
doing so. I would be happy to look into it.
    Senator Nelson. OK. Well, we are going to help you along by 
virtue of the hearing that we will have coming up in the early 
part of August down there.
    Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman. Appreciate it. Thank 
you, Dr. Schaefer. Appreciate your being here.
    And I think as I walked in, I heard the chairman talking 
about how do we determine how much fish or other types of 
aquatic life we have in an area. And this is an issue that I am 
very concerned about in the Gulf of Maine, that we have had a 
situation, particularly with the cod and had a stock in the 
Gulf of Maine, that as a result of actions taken by NOAA--in 
fact, yesterday I was questioning Administrator Bullard about 
this issue, that our fishermen have gone through this year a 78 
percent cut in what they can fish for in their quota for the 
Gulf of Maine--in the Gulf of Maine for cod. And you can 
imagine what that does to a small fishing boat. In fact, many 
of them have gone out of business.
    And one of the issues that was touched upon in the hearing 
yesterday is that the need for--in fact, the head of the New 
England Fishery Management Council reiterated this. The need 
for better data and research to be able to know exactly, you 
know, what stocks exist, and to put us in a position where, you 
know, these people who are small fishermen and women who have 
been put out of business, many of them have done this for 
generations. And you can imagine it is sort of part of our 
tradition. We are very proud of them.
    And so it is an issue that I am very concerned about 
because there is a lot of feeling that the science behind it is 
that we have not adequately developed it to really understand 
where things are. And so, I wanted to get your thoughts on that 
because it seems to me that we need to do better research so 
that we can strike the right balance so that, you know, people 
who have made their livelihood, I think, responsibly off the 
seas for years, trying to do the right thing, can continue to 
do that, while we make sure that we have obviously adequate 
stocks.
    Dr. Schaefer. Thank you for that question, Senator. I know 
that the fisheries in New England are extremely important to 
the economies of those States, important jobs, a wonderful 
livelihood that is actually iconic really----
    Senator Ayotte. Right.
    Dr. Schaefer.--in New England. I lived in Massachusetts, 
and I learned that as a young person. And I know that when 
Federal agencies work with fishery management councils, they 
are making real decisions that affect real people. And I am 
very sensitive to these types of issues.
    Stock assessments that you are referring to, that is a 
common theme that we are encountering on our coasts. The 
frequency of our stock assessments, I think, is something that 
we should step back and take a look at. Of course, doing them 
and doing them well does require supporting those who are doing 
them. And we need to make sure we have adequate resources, that 
we are levering capabilities both within Federal agencies, and 
in universities, and State agencies to make sure that we are--
and with the information that the fishermen are providing, so 
that we have a solid understanding of what is there.
    It is an extremely important issue, and I realize a 
reduction of that magnitude has a major impact on individuals.
    Senator Ayotte. Anyone who is running any kind of business, 
if they saw a 78 percent reduction--I mean, it is hard to see 
how they would survive, and particularly those who have made 
their way on the seas for years and generations.
    Dr. Schaefer. Yes. And, again, I am very sensitive to that, 
and the regional administrator I know has been grappling with 
this and definitely lays awake at night worrying about it.
    I will make it a high priority, if I am confirmed, to make 
sure that we are bringing the best science to bear, and where 
there are deficiencies, that we are communicating that to the 
Committee so that we can work together to find a way to resolve 
those things.
    Senator Ayotte. Well, I appreciate that. That is very 
important to all of us in New England, and that you would give 
a commitment to that issue to make sure that what we are doing 
in research is adequate, and if we need to obviously put a 
greater emphasis on it, if you communicate that with the 
Committee, I certainly look forward to working with you on 
that. So, thank you, Doctor.
    Dr. Schaefer. Thank you, Senator.
    Senator Nelson. Senator Scott?

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, sir. Dr. Schaefer, good to see 
you this morning.
    Dr. Schaefer. Thank you, Senator.
    Senator Scott. I recently on Monday had a meeting with a 
lot of my guys in the fisheries business, and my question 
really is very similar to Senator Ayotte's question. I would 
love for you to come down to South Carolina and take a look off 
the coast so you can have an appreciation for the reality that 
we, at least at home, believe that we need more sound science 
to show the reality of the oceans. And we would love for you to 
come down and participate in an offshore discovery opportunity.
    I will say that one of the questions I thought was 
important that my fishermen were asking had to do with the fact 
that their livelihood is not a today-only livelihood. There are 
actually multiple generations in the business, and they have 
started restaurants and succeeded. One specific company, Crosby 
Seafood, spent a lot of time just helping me understand what it 
takes for them to help create the wonderful tourism that we 
have on the coast. We bring about $30 million tourism in from 
Myrtle Beach through Charleston and Hilton Head.
    Much of our tourism is driven by our restaurants. 
Charleston has been fortunate to be the number one tourist 
destination in the world, according to Conde Nast magazine. And 
part of that is because of the success of our restaurant 
business. There is a company--a restaurant, Husk, number one 
new restaurant in 2011 in all of America.
    They set their menus at midnight, and I am not sure if I 
have this exactly as they said it, but this is basically how it 
happens. They get a text from the satellite that tells them 
what is going to be available, and then they set their menu for 
the next day because every day they try to change their menu.
    And there are certain things that you cannot get during 
season, so in March and April, it is very difficult to get any 
red snapper because of the limits. Also, in addition to red 
snapper, there is a grouper limit. And they say that the limits 
are inconsistent with what is available in the ocean.
    So my question is, as we have driven our economy in South 
Carolina, especially on the coast of South Carolina, with 
tourism because of our restaurant business, which is then 
driven by what is found in the oceans, it would be very 
important for us to have an opportunity for you to come down 
and help us understand the process that you would take to 
uncover what NOAA really needs to do in order to understand 
what is happening off of the coast of South Carolina.
    Dr. Schaefer. I would welcome the opportunity, Senator. And 
just for the record, I have been one of those tourists that 
comes down to Myrtle Beach and have spent many hours body 
surfing off the coast there. And my son, Greg here, went to 
Coastal Carolina University just in Conway there. So we had the 
opportunity to visit then.
    Senator Scott. Yes.
    Dr. Schaefer. I recognize how important tourism is to South 
Carolina and to so many other States. It is critical to the 
Gulf. It is critical to New England, and the West Coast, and 
Hawaii. And we want to make sure that we have resilient coastal 
resources, that we understand what we have, that we understand 
what the threats are to those resources, that we are doing the 
very best we can to ensure that with respect to fisheries, we 
know what is there, we know what the trends are, and what the 
pressures are on those resources. And all of that requires this 
sound scientific foundation that you are referring to.
    We also, as you may know, Senator, have--NOAA has the Coast 
Services Center there in Charleston, which has the focal point 
for bringing information together about the status of our 
coastal and marine resources. And that is a remarkable facility 
in your backyard.
    Senator Scott. On James Island, I have been there a couple 
of times, and it really is a great resource for us.
    The second question I have for you, and it is really more 
of a comment than it is a question. The President's Executive 
Order implementing a new national ocean policy gives NOAA 
responsibility for over 130 items without any specificity with 
respect to new regulations, or new regulatory actions, or legal 
authority that has been spelled out.
    And so, my real question is, one of the concerns that we 
have is that with that large footprint, without any clarity 
that would be provided by legislation, we find ourselves in a 
position where it seems like the Federal reach would go beyond 
where it has been. It goes into our inland, our lakes, and 
ponds, our rivers.
    I would love to have your comment on how to go about 
building a policy that creates clarity, and ensuring that the 
bureaucracy does not start creating legislation essentially by 
rulemakings.
    Dr. Schaefer. One of the challenges we have--well, it is 
both a strength and a challenge, that our environmental--the 
Nation's natural resources and environmental laws have evolved 
over many years. And they have goals and objectives that 
sometimes overlap and sometimes compete with each other. And 
so, we have the strongest network in the world for ensuring the 
viability of our resources.
    But at the same time, there is a tension there, and it is 
difficult at times to see the big picture and understand the 
interconnectedness of the various regulatory mandates and the 
impacts that they have in the real world on small businesses, 
large businesses, fishermen, and so on.
    I know--you asked a complex question, and it is one that I 
would be very interested in looking into and working with you 
on. I will say in general that I believe that a Federal agency 
needs to be very careful any time it takes a step to enhance or 
institute a new regulatory program. You need to understand the 
impacts of that. And there is an entity within OMB that helps 
to make sure that agencies do understand the impacts, and we 
are being thoughtful about any new regulations that we devise. 
So I am sensitive to it, and I am committed, if I am confirmed, 
to paying attention to that.
    Senator Scott. We hope to have the opportunity, if you are 
confirmed, to work with you on what we would define as a 
Federal overreach, and define some limits on how to gather the 
information in such a way that it makes it all work together 
and creates connectivity without the Federal Government 
becoming in charge of what we believe is important to remain in 
the hands of states and local jurisdictions.
    Dr. Schaefer. Thank you, sir.
    Senator Scott. Yes, sir. Thank you, Mr. Chairman.
    Senator Nelson. Further questions?
    [No response.]
    Senator Nelson. Well, Dr. Schaefer, thank you.
    I want to remind the colleagues that--and NOAA that we have 
agreed on an expedited process for questions for the record. So 
for the Committee members, please have your questions submitted 
by the close of business tomorrow, July 25. And, Dr. Schaefer, 
the Committee asks that your response to these questions be 
submitted by 10:00 Monday morning.
    We hope to vote on your nomination at the Committee's 
Executive Session on Tuesday, July 30. And so, if we can 
expedite this process, it will enable us to go ahead and vote 
on your nomination.
    Thank you for being here. Thanks to the Committee for its 
participation.
    The meeting is adjourned.
    Dr. Schaefer. Thank you, Senator.
    [Whereupon, at 10:44 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Dr. Mark E. Schaefer
International Pacific Halibut Commission
    Question 1. The Department of Commerce oversees a number of key 
nominations and appointments at the National Oceanic and Atmospheric 
Administration. Mr. Bob Alverson, a halibut fisherman from Seattle, was 
nominated to be a Commissioner on the International Pacific Halibut 
Commission for the non-Alaska seat. Recreational, commercial and tribal 
Pacific halibut fisheries provide jobs to fishers, outfitters, 
processors, seafood retailers and shipyards throughout the Pacific 
Northwest. According to the International Pacific Halibut Commission's 
Annual Report, the sport halibut fishery is second only to salmon, with 
landings reaching over 370,700 pounds in 2010. In addition, the 
commercial halibut catch on the West Coast was 407,600 pounds 
supporting many commercial fishing jobs both in our coastal 
communities, in the Puget Sound and in ports up the Columbia River.
    Despite Pacific halibut's importance to our coastal economies, the 
Department of Commerce has failed to appoint commissioners. Mr. 
Alverson has been waiting over a hear and a half to hear from the 
Department.
    Mr. Schaefer, when confirmed, will you select a commissioner for 
the International Pacific Halibut Commission? By what date will you 
have commissioners selected, and notified of their selection? In your 
role as Assistant Secretary, how will you prevent long, costly, drawn 
out appointment processes at the Department of Commerce in the future?
    Answer. While I am not familiar with the specifics of this 
Commission, I do understand the importance of this to you and your 
constituents. I am also sensitive to the appointments process and how 
lengthy that process can be. If confirmed, I will get up to speed on 
the specifics of this particular process and work with the White House, 
who makes the final appointment, to make sure the process moves 
forward.
Shark Finning and NOAA Overreach
    Question 2. Shark populations globally are declining at alarming 
rates. My home state took action on this issue by passing a law in 2011 
to ban the possession and sale of shark fins--the market for which 
drives overexploitation of sharks worldwide. We joined a growing number 
of states in recognizing that the main way to combat the global 
slaughter of sharks is to remove the market for, and trade in, shark 
fins. In May of this year, however, the National Marine Fisheries 
Service (NMFS) issued a proposed rule in which the agency articulated a 
view for the first time that state laws like Washington's may be 
preempted by the recent Shark Conservation Act of 2010. My question for 
you relates to the way in which the agency handled itself in this 
matter.
    Dr. Schaefer, federal agencies are required under Executive Order 
13,132 to engage in a consultation process with states whose laws may 
be affected, when the agency intends to preempt state law. NMFS failed 
to consult with my state, and any other state, before issuing its 
proposed rule on shark fins. Please explain how the agency was able to 
do this. Furthermore, will you give me your commitment that this will 
not happen under your leadership?
    Secondly, now that the consultation process has slowly started in 
both Washington and California, Dr. Schaefer, currently California's 
shark fin law, which is similar to Washington's law, is subject to 
litigation. Private parties from industry have challenged the law, and 
the State of California and intervenors are defending the law. On 
Monday of this week, the U.S. Department of Justice filed an amicus 
brief in the Ninth Circuit Court of Appeals, taking the position on 
behalf of NMFS that the California law is preempted by Federal law. I 
am not weighing in on ongoing litigation, but I want to understand how 
NMFS has been conducting business between interested parties.

  <bullet> NMFS is currently engaged in consultation with the State of 
        California, just as it is with the State of Washington, ``in an 
        effort to avoid . . . a conflict'' between state and Federal 
        law that would result in preemption. Executive Order 13,132, 64 
        Fed. Reg. 43,255, 43,257 (August 10, 1999). Please explain why 
        this aggressive action in the courts--which flatly denies any 
        compatibility between state and Federal law--does not undermine 
        the consultation process required by Executive Order 13,132 as 
        a way of collaboratively avoiding conflicts between state and 
        Federal law?

  <bullet> Can you ensure that NMFS will conduct itself in a more 
        measured way with respect to preemption, following through with 
        a full consultation process before taking litigation positions, 
        under your leadership? You should know, that this type of 
        behavior from NMFS regarding legal opinions and non-legal 
        ``white papers'' (which are non-legal, legal documents prepared 
        by lawyers) is a pattern which creates enormous uncertainty in 
        our states, and with our stakeholders.

    Answer. I am not familiar with the complexities of this specific 
issue, but I can assure you that my practice in any position I have 
held has been to hear from all interested parties to make sure all 
sides of the issue are heard and at least taken into account before a 
final decision is made. If confirmed, I will make sure I fully 
understand this issue and set up a process that will ensure all views 
are heard and considered in a timely manner moving forward.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                          Dr. Mark E. Schaefer
    Question 1. I keep hearing that NOAA's research budget keeps 
getting slashed, and at the same time that we have pressing needs for 
data and important questions we need to answer--whether it is questions 
about the status of fish stocks or what acidification and climate 
change mean for our shellfish farmers in Connecticut?
    How do you see NOAA accomplishing its core mission of informing 
important management choices in an era of declining research budgets?
    Are the alternative revenue streams or budget cuts that can be made 
to allow NOAA to conduct the critical research that needs to be done?
    Answer. This is a question many Federal agencies have to face in 
this challenging budget environment. If confirmed, I would work to 
ensure the agency takes a hard look at its core missions and what is 
needed to sustain these at an adequate level, while leveraging 
partnerships with academia and industry to make sure the best available 
science informs the agency's decisions.

    Question 2. Strict new rebuilding requirements, coupled with the 
annual catch limit mandate, create problems achieving sustainable yield 
for healthy stocks co-harvested in fisheries where some catch of 
rebuilding species is inevitable. In such instances, rebuilding stocks 
become ``choke'' species, preventing full harvest of healthy stocks and 
creating allocation battles. The problems Georges Bank yellowtail 
flounder are causing for New England haddock and scallop fishermen 
illustrate the situation. For instance, even though Georges Bank 
haddock is highly abundant, only a small fraction of its annual catch 
limit can be harvested. Likewise, yellowtail by-catch limits are 
driving scallop management decisions. Indeed, increasingly small 
yellowtail flounder allocations to the scallop fishery and associated 
accountability measures risk closing the scallop fishery in highly 
productive areas on Georges Bank. Conservation is important to our 
fishing communities, but so is the need for abundant stocks to be 
harvested. What steps are NOAA Fisheries and the fishery management 
councils taking to help ensure that fishermen have access to abundant 
resources, such as scallops and haddock?
    Answer. I am aware of steps NOAA has taken to increase the 
industry's access to healthy stocks. These include proposing to re-open 
areas closed to fishing to facilitate harvest of healthy stocks, 
lowering the minimum sizes of some stocks to reduce discards and 
increase revenues, and encouraging the exploration of new gear types by 
issuing exempted fishing permits.

    Question 2a. What flexibility can be added to the Magnuson-Stevens 
Act to better balance conservation with access to abundant resources, 
such as scallops and haddock?
    Answer. Striking this type of balance is important and requires 
consideration of input from a broad range of interested parties. If 
confirmed, I look forward to learning more from you and your 
colleagues, the Councils, state agencies, universities, tribes, and the 
fishing industry about this particular dimension of this important 
piece of legislation. I will work to develop strategies and priorities 
for any reauthorization legislation that will safeguard the progress it 
has enabled, and seek to develop innovative solutions to improve it.

    Question 3. We have been successfully reducing over-capacity issues 
in our fishing fleets for nearly two decades.
    Are we nearly where we need to be in terms of matching the fleet's 
capacity with sustainable harvest levels or are further cuts going to 
be required? Are there other sectors where we could be putting 
displaced fishermen to work? When there was a net ban in Florida, 
training programs ushered in millions of dollars of new clam farming 
production.
    Should we be re-training fishermen to grow mussels or seaweed? What 
can NOAA do to streamline permitting for mussel farms in Federal 
waters? We import millions of dollars of mussels from Canada.
    NOAA has determined that the Magnuson-Stevens Act gives it 
authority to regulate shellfish aquaculture activities in Federal 
waters. Are there any shellfish aquaculture experts or representatives 
on the Regional Councils? Should the Regional Fisheries Management 
Councils have any regulatory authority over shellfish aquaculture 
permitting?
    Answer. These are important questions and issues that deserve close 
study, and I am committed to looking into them. As I have already 
stated, if confirmed, I look forward to learning more from you and your 
colleagues, the Councils, state agencies, universities, tribes, and the 
fishing industry about this important piece of legislation, and how 
these issues fit in the picture of its reauthorization. I will work to 
develop strategies and priorities for any reauthorization legislation 
that will safeguard the progress it has enabled, and seek to develop 
innovative solutions to improve it.

    Question 4. One of the issues that I hear about from shellfish 
farmers in Connecticut is that certain environmental regulations can 
pose challenges for shellfish permitting, which is a big industry in my 
state.
    For instance eelgrass is protected as ``essential fish habitat'' 
under Magnuson-Stevens Act. Yet I hear from scientists that shellfish 
aquaculture provides many of the same ecosystem benefits that eelgrass 
provides, including improvements in habitat and water quality.
    Should we move away from a policy that mandates ``no net loss of 
eelgrass''--to one that says ``no net loss of ecosystem function''?
    Is there a way for us to preserve biodiversity and ecosystem 
services while creating new jobs and providing sustainable seafood as 
well?
    Answer. My career has focused on ensuring that strong, solid 
science informs the best policy decisions we can make for our 
environment and our economy. Preserving biodiversity and ecosystem 
services is precisely the way to ensure strong coastal economies where 
jobs rely on tourism, marine resources, resilient coastal communities, 
and healthy ecosystems. If confirmed, I look forward to learning more 
on the reauthorization of the Magnuson-Stevens Act looking for ways to 
provide opportunities to balance resource use with conservation.

    Question 5. Information collected by fisheries observers represents 
an important source of data for fishery conservation and management. 
For instance, observer data is used in many fisheries to track a 
fishing fleet's level of bycatch against its overall bycatch limits. 
Certain fishermen, such as scallop industry participants, are required 
to pay for their own observers, and that can be very expensive. I 
understand it can take many months for NOAA Fisheries to be able to 
compile and analyze data obtained from observers so these data can be 
used to estimate bycatch levels. As a result, fishermen can end up 
``flying blind'' during the fishing season in terms of knowing where 
their catches are in relation to bycatch catch limits.
    What more can NOAA Fisheries do to ensure observer information is 
accurate?
    What more can NOAA Fisheries do to ensure that observer information 
is available in time to be useful to the fishermen who are paying for 
it?
    Answer. I understand that there can be time delays in inserting 
observer data into the process that determines catch limits simply 
because paper records have to be entered into computer systems. This is 
one reason so many are interested in implementing electronic monitoring 
in fisheries where it makes sense for fishermen and the fishery. One 
advantage of electronic logbooks is the rapid transmission of data. If 
confirmed, I look forward to working with the fishing industry and 
Congress to see these efficiencies implemented where possible so 
fishermen can have more certainty in their business operations.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          Dr. Mark E. Schaefer
Timely communication with Congress
    Question 1. Questions for the record--like this one--are an 
important way for our Committee Members to more deeply understand the 
positions of the Departments and agencies over which we have 
jurisdiction. We hope that those Departments and agencies view the 
responses to those questions as an opportunity to further educate 
Members about their challenges and views.
    The National Oceanic and Atmospheric Administration (NOAA) has not 
been as responsive to this Committee as many of us expect. In the 112th 
Congress, there was one instance in which NOAA failed to provide 
answers to questions for the record; ten months after the questions 
were submitted to the agency, the hearing record was closed and the 
following acknowledgement was printed in the hearing record: ``Although 
Committee Members submitted written Questions for the Record to Dr. 
Jane Lubchenco following the March 7, 2012, hearing, NOAA did not 
provide responses to the Committee before the hearing record was closed 
on January 25, 2013.'' This Congress, we are still awaiting answers to 
questions for the record sent on April 3, 2013, following a March 19 
fisheries hearing.
    In addition, some of my fellow Senators have written to the agency 
to inquire about the status of issues important to their states and 
have not received timely responses. For example, my colleagues from 
Georgia wrote to the agency in April to seek an update on the status of 
a permit application; they have not yet received an answer.
    If you are confirmed to be Assistant Secretary of Commerce for 
Oceans and Atmosphere, will you do your best to ensure that 
communications between NOAA and our Committee and its Members are 
timely and accurate? In particular, I would appreciate responses to 
substantive questions for the record within no more than three months; 
in cases where official responses on that timeline are impossible, I 
would appreciate the agency to communicate the reason for the delay to 
the Committee.
    Answer. I know communication with Congress is an important function 
for the position for which I am nominated. If confirmed, I will 
absolutely do my best to ensure communications between NOAA and the 
Committee are timely and accurate. If we are not able to meet certain 
deadlines, I will commit to communicating clearly with the Committee as 
to why.
NOAA Reorganization
    Question 2. In 2008, you were lead author on a paper, ``An Earth 
Systems Science Agency,'' published in Science. In this article, you 
and your coauthors advocate for the establishment of an ``independent 
Earth Systems Science Agency formed by merging the National Oceanic and 
Atmospheric Administration (NOAA) and the U.S. Geological Survey 
(USGS).'' Do you still think that realigning Federal earth systems 
science agencies, including NOAA, would best position the U.S. to 
address future environmental challenges? Further, if such a 
reorganization were to take place, what would be the fate of the 
fisheries functions of NOAA, for example the National Marine Fisheries 
Service (NMFS), taking into account studies such as the Government 
Accountability Office's 2013 ``Potential Benefits and Drawbacks of 
Merging the National Marine Fisheries Service into the Fish and 
Wildlife Service'' (GAO-13-248)?
    Answer. I and several colleagues wrote that paper a number of years 
ago strictly from the viewpoint of an optional approach to aligning 
earth science activities. I am fully aware of how much time and effort 
goes into any type of reorganization, especially if it is done 
correctly. If confirmed, I will focus on ensuring NOAA's expertise 
continues to support vibrant coastal economies and complements the work 
of other Federal agencies.

    Question 3. Should you be confirmed, how would you ensure that 
NOAA's employees are encouraged to express concerns about financial or 
other mismanagement issues at the agency, and that those concerns are 
taken seriously and investigated in a timely manner by the appropriate 
members of NOAA's management team?
    Answer. If I am confirmed, I will work with the Commerce and NOAA 
General Counsel's offices to be sure that NOAA employees in the offices 
I oversee are aware of their rights and responsibilities with respect 
to financial and other management matters, including the procedures for 
properly reporting concerns about possible waste, fraud, abuse, or 
other concerns. I will also ensure that managers are informed of the 
procedures for addressing these concerns in a timely manner, including 
when it is appropriate to notify others in the department or elsewhere 
of reported issues.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                          Dr. Mark E. Schaefer
    Question. I am concerned regarding a recent trend of a lack of 
communication and responsiveness between NOAA and Congressional 
offices.
    Dr. Schaefer, over the course of the last year, members of the 
Senate and staff of this committee have been in contact with NOAA and 
the National Marine Fisheries Service (NMFS) regarding an application 
submitted in June of 2012 by Georgia Aquarium for the importation of 
beluga whales from Russia. Following extensive engagement between the 
Aquarium and NMFS, an extended period of public comment and 
expectations provided by the agency to the Aquarium of a decision 
throughout the winter and spring. But to date, despite bipartisan 
outreach from Congress and direct engagement with agency leadership by 
the Aquarium, no decision has been made on the permit, and no 
indications have been provided to the petitioner of when a decision can 
be expected.
    Members are concerned that the agency has failed to officially 
respond to multiple letters from the Congress requesting a status 
update and an inability to provide certainty or detail to the 
petitioners regarding the status, concerns or when to expect a 
decision. More troubling is that this is not a unique situation. The 
Institute for Marine Mammal Studies and the Mississippi Congressional 
delegation had to send multiple letters to NOAA on their unrelated 
application for any action to take place.
    How do you plan to improve the responsiveness of the agency to 
Congress?
    Answer. I firmly believe that open communication and responsiveness 
are key to any decision, especially the difficult decisions I know I 
will face if confirmed. I look forward to learning about the specific 
issues surrounding these communication challenges and working with you 
on ways to improve responsiveness on these issues and others, if 
confirmed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Dr. Mark E. Schaefer
    Question 1. Mr. Schaefer: Your predecessors at NOAA--former 
Administrator Jane Lubchenco; former Acting Asst. Secretary Eric 
Schwaab, and Acting Assistant Administrator Sam Rauch--all publicly 
acknowledged (repeatedly) problems with allocation of fishery resources 
between commercial and recreational fisheries. One said allocation was 
``rusted shut.'' Another noted that allocations were ``frozen in time 
30 years ago.'' All pledged to do something to fix these institutional 
inequities. Are you going to do something about the problems of 
allocation?
    Answer. If confirmed, I will commit to looking into the allocation 
issues and reach out to all interested parties to hear ideas about how 
best to approach fixing the issue.

    Question 2. Mr. Schaefer: My home state of Florida is the epicenter 
of marine recreational fishing that generates an annual $17 billion 
economic impact. From the NOAA conference in May of this year to 
congressional hearings on both sides of the Capitol, we are hearing the 
stark truth: that the Magnuson-Stevens Act is not working for 
recreational fishing; that strict interpretation of MSA combined with 
Federal budget constraints atop a lack of scientific data yielding 
business-crushing uncertainty. All these are ingredients in a recipe 
for disaster in coastal angling towns across the Sunshine State. How 
will you help the Department of Commerce ensure that the Magnuson-
Stevens Act will start working for recreational fishing?
    Answer. I understand that NOAA has strengthened its focus on and 
relationship with the recreational fishing community in recent years. 
If confirmed, I pledge to carry that positive relationship forward. I 
believe success occurs when all parties are at the table and, if 
confirmed, I will ensure that the recreational community has a seat at 
the table as conversations about the next reauthorization of the 
Magnuson-Stevens Act occur.

    Question 3. Mr. Schaefer: Red snapper management in the Gulf of 
Mexico is broken. It reached an all-time low this year with the Federal 
courts rejecting NMFS' discriminatory tactics. The Gulf governors have 
called on Congress to allow their states to manage this important 
fishery resource. As you know, the states have an impressive track 
record managing fisheries. Do you support the governors' request to 
send red snapper management to the states?
    Answer. I know this is an important fishery for your state as well 
as the region. From what I understand, while challenges remain, there 
have been positive developments including an increased allocation for 
fishermen. However, I am also aware that this is a complex issue and 
there are a couple of lawsuits currently pending with NOAA. If 
confirmed, I will make sure I get the specifics of the history leading 
up to this point and work with Congress, the Administration and the 
industry on this important issue.

    Question 4. As you know, accurate and up-to-date science is 
essential for proper fishery management. May I get your commitment to 
make data collection a priority within the agency?
    Answer. Accurate and up-to-date science is the foundation for the 
proper management of any resource, especially fisheries. If confirmed, 
I will work hard to make sure our decisions are based on strong science 
and that proper data collection remains a top priority for the agency.

    Question 5. NOAA recently proposed listing 66 coral species as 
endangered species by estimating the health of the species over the 
next 100 years. While I understand we are in the early stages of the 
process, I am concerned about the potential economic impact this 
listing may have on recreational fishermen and businesses in Florida. 
May I get your commitment to work with my office as the agency moves 
forward with this listing?
    Answer. I know complex decisions like this can have far-ranging 
economic impacts, which need to be considered in the decision process. 
However, I know that protecting our coastal areas and resources, 
including corals, is critical for maintaining healthy tourism, 
fisheries and other economic opportunities. If confirmed, I commit to 
working with Congress, stakeholders and the Administration as the 
agency considers the proposed listing.

    Question 6. As you know, the Subcommittee has begun the process of 
working to reauthorize the Magnuson-Stevens Act. Should you be 
nominated what policies would you highlight and prioritize in the 
reauthorization?
    Answer. If confirmed, I look forward to learning more from you and 
your colleagues, the Councils, state agencies, universities, tribes, 
and the fishing industry about this important piece of legislation. I 
will work to develop strategies and priorities for any reauthorization 
legislation that will safeguard the progress it has enabled, and seek 
to develop innovative solutions to improve it.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                          Dr. Mark E. Schaefer
    Question 1. Dr. Schaefer, NOAA has had a long and very successful 
history of collaboration with the academic community through 
cooperative agreements and institutes. For example the Joint 
Hydrographic Center at the University of New Hampshire has provided 
NOAA and the private sector with software tools for hydrographic 
surveys, has found applications in fisheries research, has aided in the 
mapping of the U.S. outer continental shelf, and has supported the 
Nation's response to the Deepwater Horizon oil spill. What are your 
views about the role of these cooperative research centers today and in 
the future?
    Answer. I believe that policy decisions should be founded on the 
best science available which is created by bringing together the best 
expertise. Cooperative research centers play a role in making that 
happen, as do other types of research performers. If confirmed, I look 
forward to working with NOAA, the industry, our external partners and 
Congress to ensure our science is collaborative and strong.

    Question 2. Dr. Schaefer, as Assistant Secretary of Commerce for 
Oceans and Atmosphere, you will play an important role in coordinating 
the efforts of NOAA's partners and stakeholders in the Gulf of Mexico 
in the wake of the Deepwater Horizon oil spill. As you know, NOAA's 
role in spill response and restoration requires that its scientists and 
responders provide other Federal partners with the best available 
scientific advice on the spilled oil's fate, behavior and effects.
    In your role as Assistant Secretary, could you outline for the 
Committee how you propose to ensure that NOAA scientists and spill 
practitioners keep abreast of the findings of these very large and 
disparate research efforts, and have the opportunity to translate them 
into improved response, damage assessment and restoration?
    Answer. NOAA has valuable expertise regarding oil spill response 
and restoration and I'm familiar with the important science and 
expertise that is housed at the University of New Hampshire. If 
confirmed, I will work to ensure that NOAA continues its valuable 
collaboration with academic partners like the University of New 
Hampshire to continue to provide the best oil spill response and 
restoration resources possible so the Nation can be well prepared for 
any future events.

                                  <all>

</pre></body></html>
